No. 19-161
IN THE

DEPARTMENT OF HOMELAND SECURITY, et

v.

al.,
Petitioners,

VIJAYAKUMAR THURAISSIGIAM,

Respondent.
ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.l(h), I, Noah A. Levine, a member of the
bar of this Court, certify that the accompanying Brief for Scholars of the Law of Habeas
Corpus as Amici Curiae Supporting Respondent contains 6,869 words, excluding the
parts of the document that are exempted by Supreme Court Rule 33.l(d).
Executed on January 22, 2020.

NOAH A. LEVINE
WILMER CUTLER PICKERING
HALE AND DORR LLP

7 World Trade Center
250 Greenwich Street
New York, NY 20007
(212) 230-8875
noah.levine@wilmerhale.com

